TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                            Opportunities Exist to Reduce
                            Lockbox Fingerprinting Costs



                                           April 26, 2012

                              Reference Number: 2012-10-040




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                         HIGHLIGHTS


OPPORTUNITIES EXIST TO REDUCE                        Another area for potential cost savings involves
LOCKBOX FINGERPRINTING COSTS                         the high use of manual fingerprinting at one
                                                     lockbox bank. TIGTA determined that if electronic
                                                     fingerprinting was fully used at this lockbox bank,
Highlights                                           the IRS could have saved approximately $14,000
                                                     in Fiscal Years 2009 and 2010. Because of these
Final Report issued on April 26, 2012                opportunities, TIGTA believes the IRS could have
                                                     potentially saved 40 percent of the $496,953 in
Highlights of Reference Number: 2012-10-040 to       fingerprinting charges for the three lockbox banks
the Internal Revenue Service Human Capital           reviewed in Fiscal Years 2009 and 2010.
Officer.
                                                     WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS
                                                     TIGTA recommended that the IRS Human Capital
To ensure lockbox banks can process large            Officer 1) perform an annual assessment of the
amounts of taxpayer payments received at their       number of staff needed at each lockbox bank to
locations, lockbox banks must hire sufficient        ensure fingerprinting charges are not excessive,
staff when needed with cleared background            2) evaluate the feasibility of requiring lockbox
investigations. Lockbox bank employees are not       banks to maintain logs of individuals fingerprinted,
allowed to begin working until the bank receives     3) develop a process requiring IRS personnel to
confirmation from the IRS that the employee has      periodically review and analyze fingerprint billing
passed a limited background investigation based      data, 4) clearly communicate appropriate
on a successful fingerprint check. TIGTA             fingerprinting submission guidance to lockbox
determined that opportunities exist to reduce        bank management, and 5) evaluate the use of
fingerprinting costs at lockbox bank locations.      electronic fingerprints at all lockbox banks.
Effective cost management is especially important
given the current economic environment and the       In their response, IRS management agreed with
focus on efficient spending in the Federal           three of our five recommendations. IRS
Government.                                          management agreed to evaluate the feasibility of
                                                     requiring the lockbox sites to maintain
WHY TIGTA DID THE AUDIT                              documentation to identify potential employees
                                                     who have been previously fingerprinted. IRS
This review was requested by the IRS and             management has also revised guidance regarding
addresses the major management challenge of          individuals with unclassifiable fingerprint results
Erroneous and Improper Payments and Credits.         and ensured that all lockbox sites have electronic
The overall objective of this review was to          fingerprint equipment.
determine whether the IRS is accurately billed for
the cost of fingerprinting contractors who work in   However, IRS management did not fully address
IRS lockbox operations.                              our concern that lockbox banks are fingerprinting
WHAT TIGTA FOUND                                     an excessive number of potential employees.
                                                     Although IRS management indicated they would
TIGTA determined that opportunities exist to         require a justification if the number of applicants
reduce fingerprinting costs at various IRS lockbox   fingerprinted exceeded industry standards, TIGTA
bank locations. For example, an excessive            does not believe applying the industry standard
number of potential lockbox bank employees are       hiring ratio will effectively ensure fingerprinting
being fingerprinted. TIGTA estimated that the        costs will be reduced. Additionally, while TIGTA
three lockbox banks reviewed unnecessarily           agrees with IRS management that pre-emptive
fingerprinted 6,646 lockbox bank employees,          measures to avoid duplicative fingerprint requests
resulting in $161,165 in excessive charges.          would improve the process, TIGTA believes an
TIGTA also identified that fingerprinting charges    analysis of billing information would provide an
were paid for the same individuals in more than      increased assurance that steps taken by lockbox
1,000 instances in the same fiscal year, resulting   banks are effective to prevent duplicative charges.
in nearly $25,000 in unnecessary costs.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 26, 2012


 MEMORANDUM FOR INTERNAL REVENUE SERVICE HUMAN CAPITAL OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Opportunities Exist to Reduce Lockbox
                             Fingerprinting Costs (Audit # 201110012)

 This report presents the results of our review of the accuracy of fingerprinting costs at Internal
 Revenue Service (IRS) lockboxes. The overall objective of this review was to determine
 whether the IRS is accurately billed for the cost of fingerprinting contractors who work in IRS
 lockbox operations. This review was requested by the IRS and was included in our Fiscal Year
 2011 Annual Audit Plan. This review addresses the major management challenge of Erroneous
 and Improper Payments and Credits.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations) at (202) 622-8500.
                                                   Opportunities Exist to Reduce
                                                   Lockbox Fingerprinting Costs




                                            Table of Contents


Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Fingerprinting Costs at Internal Revenue Service
          Lockbox Banks Can Be Reduced ................................................................. Page 4
                    Recommendations 1 through 3:......................................... Page 9

                    Recommendations 4 and 5: .............................................. Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measures............................................................... Page 15
          Appendix V – Management’s Response to the Draft Report ....................... Page 18
             Opportunities Exist to Reduce
             Lockbox Fingerprinting Costs




            Abbreviations

FY    Fiscal Year
HCO   Human Capital Office
IRS   Internal Revenue Service
OPM   Office of Personnel Management
                                           Opportunities Exist to Reduce
                                           Lockbox Fingerprinting Costs




                                            Background

The Internal Revenue Service (IRS) has used lockbox
depositaries (banks) since 1985. This lockbox network is                              Lockbox banks
                                                                                     processed nearly
comprised of three commercial banks1 that collect tax payments
                                                                                   110 million payments,
at seven lockbox banks.2 These banks are authorized to act as                          worth almost
financial agents for the IRS to perform electronic and                              $571 billion in Fiscal
paper-based lockbox services. These services may include, but                      Years 2009 and 2010.
are not limited to: mail collection and sorting, mail extraction,
remittance processing, deposit proofing and balancing, data
transmission/delivery, deposit reporting, and funds transferred
to the Department of the Treasury.
According to the most recent available data, the lockbox
network processed nearly 110 million payments in Fiscal
Years (FY) 2009 and 2010, worth almost $571 billion. Due to
the large amount of taxpayer payments received and past
incidents of lockbox employees involved in the theft of these
funds,3 employees working in the lockbox operations are not allowed to begin working until the
bank receives confirmation from the IRS that the employee has passed a limited background
investigation based on a successful fingerprint check. Many of these lockbox employees are
contract, part-time, or temporary workers.
The administration of lockbox bank operations involves several different offices. Specifically,
the IRS’s Wage and Investment Division provides overall oversight to the lockbox program for
the IRS. In addition, the Department of the Treasury’s Financial Management Service
administers the contracts with the lockbox banks. Further, the IRS Human Capital Office (HCO)
Personnel Security Branch (hereafter referred to as Personnel Security) has overall responsibility
for administering the background and security checks for lockbox employees, including
overseeing the costs associated with lockbox fingerprinting charges.
To ensure they can process the large amount of taxpayer payments received at their locations,
lockbox banks must hire sufficient staff when needed with cleared background investigations.


1
  The three banks include the: 1) US Bank, 2) Bank of America, and 3) JP Morgan Chase.
2
  Per IRS data, seven lockbox banks were active in FYs 2009 and 2010 and were located in
San Francisco, California; Windsor, Connecticut; College Park, Georgia; Tucker, Georgia; St. Louis, Missouri;
Charlotte, North Carolina; and Cincinnati, Ohio.
3
  In October 2011, an individual pleaded guilty to mail fraud related to stolen tax payments while a contract
employee for Bank of America’s lockbox bank located in Tucker, Georgia.
                                                                                                          Page 1
                                       Opportunities Exist to Reduce
                                       Lockbox Fingerprinting Costs



All three lockbox banks informed us that they follow the requirements outlined in the IRS’s
Lockbox Security Guidelines regarding the process for initiating the fingerprinting of potential
employees. Lockbox banks initiate the fingerprinting process by submitting fingerprints for
potential and current employees directly to the Office of Personnel Management (OPM) for
processing. The OPM submits all fingerprints to the Federal Bureau of Investigation, which
checks to detect any criminal history and reports the results to the OPM. The OPM forwards the
fingerprint results back to the IRS for notification to the lockbox banks.
Background investigations can be initiated through the submission of manual, i.e., ink and roll
cards, or electronic fingerprint requests. Each manual fingerprint request costs $26.25 to
process, with the results mailed to the IRS within approximately three to five days after the OPM
receives the fingerprints. Electronic fingerprint requests are less expensive to process
($24.25 per request), and the results are provided to the IRS within approximately one to two
days after the OPM receives the fingerprints.
The OPM sends monthly bills to the IRS Personnel Security for charges on all fingerprinting
performed at the request of lockbox banks. IRS Personnel Security and Wage and Investment
Division personnel perform separate reviews to ensure the charges are appropriate and payment
should be made to the OPM.
According to HCO data, nearly $1.1 million in fingerprinting charges were incurred for lockbox
employees during FYs 2009 and 2010. As shown in Figure 1, five locations accounted for
approximately 75 percent of the total fingerprinting charges during this period.
                       Figure 1: Lockbox Banks With the Highest
                      Fingerprinting Charges in FYs 2009 and 2010
                                                                   Total Fingerprinting
                              Lockbox Banks                        Charges in FYs 2009
                                                                         and 2010
               US Bank – Cincinnati, Ohio                                 $207,877
               US Bank – St. Louis, Missouri                              $191,475
               Bank of America – College Park, Georgia                    $188,003
               Bank of America – Windsor, Connecticut                     $136,906
               JP Morgan Chase – Charlotte, North Carolina                $101,072
               TOTAL                                                      $825,333
              Source: Treasury Inspector General for Tax Administration analysis of
              IRS lockbox cost data.

The review was performed at the IRS Wage and Investment Division office in
Lanham, Maryland, and at the IRS HCO Personnel Security Branch at the IRS National
Headquarters in Washington, D.C. In addition, we visited three lockbox banks located in
College Park, Georgia; Charlotte, North Carolina; and Cincinnati, Ohio, from July through

                                                                                          Page 2
                                    Opportunities Exist to Reduce
                                    Lockbox Fingerprinting Costs



November 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 3
                                               Opportunities Exist to Reduce
                                               Lockbox Fingerprinting Costs




                                         Results of Review

We determined that opportunities exist to reduce fingerprinting costs at various IRS lockbox
locations. For example, an excessive number of potential lockbox bank employees are
fingerprinted. We estimate that the three lockbox banks reviewed unnecessarily fingerprinted
6,646 individuals, resulting in $161,165 in excessive charges.4 We also identified that the IRS
paid fingerprinting charges for the same individuals in more than 1,000 instances in the same
fiscal year, resulting in approximately $25,000 in unnecessary costs. Another area for potential
cost savings involves the high use of manual fingerprinting at one lockbox bank. We determined
that if electronic fingerprinting was fully used at this lockbox bank, the IRS could have saved
approximately $14,000 for FYs 2009 and 2010. Because of these opportunities, we believe the
IRS could have saved 40 percent of the $496,953 in fingerprinting charges in FYs 2009 and 2010
for the three lockbox banks reviewed.
Effective cost management is especially important given the current economic environment and
the focus on efficient spending in the Federal Government. Additional actions by the IRS will
ensure fingerprinting costs are minimized at all seven lockbox banks and that it is using its scarce
resources more efficiently.

Fingerprinting Costs at Internal Revenue Service Lockbox Banks Can
Be Reduced
We found several opportunities where the IRS could reduce fingerprinting costs at IRS lockbox
locations. Specifically, we determined that lockbox banks are fingerprinting an excessive
number of potential employees, resulting in increased costs. In addition, lockbox banks
submitted fingerprints for several individuals more than once in the same fiscal year, resulting in
unnecessary charges. Further, we determined that one lockbox bank could decrease
fingerprinting charges paid by the IRS by expanding the use of less costly electronic fingerprints,
rather than the manual ink and roll process.




4
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 4
                                          Opportunities Exist to Reduce
                                          Lockbox Fingerprinting Costs



Lockbox banks are fingerprinting an excessive number of potential lockbox
employees
We determined that all lockbox employees in our sample had a documented clearance letter,
indicating they had received a successful background investigation. This provided the IRS with
some assurance that lockbox employees had passed a limited background investigation.
However, we determined that the three banks selected for our review fingerprinted an excessive
number of potential employees during FYs 2009 and 2010. Figure 2 shows that the selected
lockbox banks fingerprinted an average of twice as many potential employees than were
ultimately hired to staff the lockbox operations during FYs 2009 and 2010.
            Figure 2: Analysis of Lockbox Fingerprint and Employee Data
  FY 2009
                                              Lockbox 1       Lockbox 2       Lockbox 3       Total Costs
  Persons Fingerprinted                              4,072          5,333            1,985
  Employees Hired to Work in Lockbox                 1,624          2,155              920
  Approximate Ratio of Persons
                                                      2.5:1          2.5:1           2.2:1
  Fingerprinted to Employees Hired
  Total Fingerprinting Costs                     $106,890       $132,243          $53,330            $292,463


  FY 2010
  Persons Fingerprinted                              3,090          3,024            1,871
  Employees Hired to Work in Lockbox                 1,363          1,912              882
  Approximate Ratio of Persons
                                                      2.3:1          1.6:1             2:1
  Fingerprinted to Employees Hired
  Total Fingerprinting Costs                       $81,113        $75,634         $47,743            $204,490
  Source: Treasury Inspector General for Tax Administration analysis of IRS and lockbox bank data.

We understand that lockbox banks need to fingerprint a sufficient number of individuals to staff
the lockbox operations, taking into account normal employee attrition, and that some potential
employees will not receive a successful fingerprint check. Using fingerprint data obtained from
the IRS HCO, we determined that the average number of individuals who historically do not
receive an approved fingerprint analysis ranged from approximately 16 to 32 percent during
FYs 2009 and 2010 at the three lockbox banks included in our review. If the lockbox banks
fingerprinted an additional 10 percent more individuals than historically fail the fingerprint check
(to allow for normal attrition), we believe that the number of unnecessary individuals submitted
for fingerprint checks ranged from approximately 58 to 74 percent, depending on the lockbox
bank. As a result, we estimate that 6,646 unnecessary fingerprints may have been submitted
                                                                                                         Page 5
                                     Opportunities Exist to Reduce
                                     Lockbox Fingerprinting Costs



resulting in excess costs of $161,165. See Appendix IV for a detailed breakdown of the potential
cost savings.
Each lockbox bank is required to submit an annual Lockbox Filing Season Readiness Package to
Wage and Investment Division personnel for review. This package outlines each lockbox bank’s
plan to help ensure that it meets peak taxpayer filing demands. It also includes staffing
schedules that provide detailed information on staffing totals and projected production during the
peak periods. However, this package does not include a justification or analysis to determine the
adequate number of employees needed to staff lockbox banks during peak filing periods.
Current IRS guidance does not require lockbox banks to justify or perform any analysis
regarding its projected staffing needs during the peak filing periods related to fingerprinting
costs.
While it is essential for lockbox bank management to fingerprint sufficient individuals to ensure
there is adequate staff to process taxpayer payments received at the lockbox, we do not believe it
is reasonable to unnecessarily fingerprint individuals who will likely not be hired by the lockbox
banks. As a result, we believe IRS management should work with the lockbox banks to perform
a comparative analysis of prior year hirings to current year projected peak filing period demands.
This would provide a benchmark in determining a reasonable number of individuals who should
be fingerprinted to meet filing demands.

Fingerprinting charges were not reviewed for accuracy before payment
Lockbox banks rely on outside staffing agencies to recruit and process potential lockbox
employees. Individuals interested in working for lockbox banks must register with these staffing
agencies. To ensure there are an adequate number of qualified candidates available for
employment consideration, lockbox banks may contract with multiple staffing agencies.
However, we determined there is no process to identify individuals who register at more than one
staffing agency. Consequently, individuals who register at more than one staffing agency could
be fingerprinted multiple times, resulting in unnecessary duplicate charges.
We analyzed IRS HCO monthly fingerprint billing data to identify duplicate fingerprinting
charges for which the IRS was billed during FYs 2009 and 2010. We found that all three of the
lockbox banks we visited submitted duplicate fingerprints to the OPM during this period.
Specifically, we identified more than 1,000 instances in which individuals were fingerprinted
more than once by selected lockbox banks in the same fiscal year, resulting in approximately
$25,000 in duplicate fingerprinting charges in FYs 2009 and 2010. Figure 3 shows the value of
the duplicate fingerprinting charges for which the IRS was billed during FYs 2009 and 2010.




                                                                                            Page 6
                                         Opportunities Exist to Reduce
                                         Lockbox Fingerprinting Costs



      Figure 3: Duplicate Fingerprint Submissions by Three Lockbox Banks


    FY 2009
                                                         Duplicate              Cost of the Duplicate
                                                        Fingerprints                Fingerprints
    Lockbox 1                                                438                       $10,621
    Lockbox 2                                                86                        $2,086
    Lockbox 3                                                120                       $2,910
    TOTALS                                                   644                       $15,617


    FY 2010
    Lockbox 1                                                288                        $6,984
    Lockbox 2                                                51                         $1,237
    Lockbox 3                                                45                         $1,091
    TOTALS                                                   384                        $9,312
    TOTALS FOR FYS 2009 AND 2010                            1028                       $24,929
   Source: Treasury Inspector General for Tax Administration analysis of IRS lockbox data.

Although staff within both the IRS HCO and the Wage and Investment Division review monthly
fingerprinting charges, neither office has an effective process in place to identify duplicate
fingerprinting charges. In addition, we determined that only one of the three lockbox banks
visited maintained a log or other documentation listing the individuals they fingerprinted during
the fiscal year. The IRS HCO sorts and totals fingerprinting charges received from the OPM and
prepares a monthly spreadsheet for the Wage and Investment Division. Although the IRS HCO
reconciles the monthly charges to summary spreadsheets, no other detailed analysis is performed
to ensure duplicate payments are not made for individuals previously fingerprinted during the
fiscal year.
In addition, OPM guidance requires that any fingerprint result of “unclassifiable” by the
Federal Bureau of Investigation will require a second fingerprint submission. However, there is
no charge associated with this second fingerprint request if the submission is processed with the
case number associated with the original fingerprint request. We determined that 592
(58 percent) of the 1,028 duplicate charges were originally determined to be “unclassifiable” by
the Federal Bureau of Investigation. Each resubmission was associated with a different case
number for which the IRS was charged as if it were a new fingerprint submission. Lockbox bank
management confirmed that they were unfamiliar with OPM guidance and unaware that the
original case number must be used during the resubmission of “unclassifiable” results to avoid
being charged again for the fingerprint resubmission.


                                                                                                    Page 7
                                      Opportunities Exist to Reduce
                                      Lockbox Fingerprinting Costs



A more effective review process of charges submitted by all the lockbox banks would ensure the
IRS is not charged more than once for the same potential lockbox employees. In addition,
increased awareness of OPM guidance by the lockbox banks would reduce the amount of
unnecessary fingerprinting charges paid by the IRS.

Expanded use of electronic fingerprints could further reduce costs
During our review, two of the three lockbox banks submitted mostly electronic fingerprints to
the OPM. However, the remaining lockbox bank primarily submitted manual ink and roll
fingerprints, even though electronic fingerprint machines were available for use. During
FYs 2009 and 2010, the IRS was billed $188,003 for the manual fingerprints submitted by this
lockbox bank. Because of the increased cost associated with manual fingerprints, we determined
that $14,324 in cost savings could have been realized at this lockbox location if electronic
fingerprinting was performed.
Lockbox banks are allowed to submit both manual and electronic fingerprints to the OPM for
processing, and there is no documented policy requiring lockbox banks to submit electronic
fingerprints when possible. Bank officials at the one lockbox bank primarily using manual
fingerprinting informed us they use this process rather than electronic fingerprints because they
were not equipped with functioning electronic fingerprint machines.
To perform electronic fingerprinting, lockbox banks must have specific equipment. The IRS and
the Department of the Treasury’s Financial Management Service share the fingerprinting costs
for lockbox employees. Although the IRS pays for a portion of the costs associated with
fingerprint checks, Financial Management Service officials informed us that they would pay for
the upgrade of new electronic equipment at all the lockbox locations if it were cost beneficial.
According to the Wage and Investment Division, all of the lockbox banks are currently equipped
with in-house electronic fingerprinting machines except for this lockbox location. Wage and
Investment Division officials also informed us that their goal is to have all of the lockbox banks
transmitting electronic fingerprints to the OPM 100 percent of the time. However, they advised
us that there may still be isolated instances, such as equipment failure and off-site bank personnel
and vendors, which may require the use of the manual ink and roll fingerprinting process.
As previously stated, electronic fingerprinting is less costly to process than the manual process
and the results are received by lockbox banks more quickly. In addition, lockbox management is
immediately notified if a fingerprint is improperly scanned, potentially limiting the number of
“unclassified” fingerprinting results. Although submission of electronic fingerprints by lockbox
banks has increased in recent years, we believe the IRS should evaluate the use of electronic
fingerprinting at all the lockbox locations to minimize costs and provide faster background
investigation results to lockbox banks.



                                                                                             Page 8
                                     Opportunities Exist to Reduce
                                     Lockbox Fingerprinting Costs



Recommendations
The IRS HCO, in coordination with Wage and Investment Division management, should:
Recommendation 1: Perform an annual assessment of the number of staff needed at each
lockbox bank for each fiscal year and the additional number of individuals that need to be
fingerprinted to ensure fingerprinting charges are not excessive. This assessment could be
included as part of the annual Readiness Package prepared by each lockbox bank or calculated
by IRS personnel based on historical lockbox data.
       Management’s Response: IRS management partially agreed with this
       recommendation. Although they did not agree to incorporate a requirement within the
       annual Readiness Package to provide information related to the number of individuals
       needing to be fingerprinted, they plan to update the annual Readiness Package to include
       an annual projected number of staff hired during the calendar year and the ratio to the
       number of projected applicants fingerprinted. IRS management also stated that if the
       ratio is outside of the American Industry Standard, the IRS plans to require the lockbox
       bank to provide a justification.
       Office of Audit Comment: IRS management did agree with our suggestion to include
       an assessment of the number of staff needed to be fingerprinted in the annual Readiness
       Package. However, IRS management did not fully address our concern that lockbox
       banks are fingerprinting an excessive number of potential employees. IRS management
       indicated they would require justification if the number of applicants fingerprinted
       exceeded industry standards. During our review, we determined that the lockbox banks
       currently had a fingerprint to hiring ratio between 1.6 and 2.5 to 1, which is similar to the
       industry standard ratio. Therefore, we do not believe that applying the industry standard
       hiring ratio will be effective in reducing fingerprinting costs. As a result, we believe our
       cost savings estimates are valid.
Recommendation 2: Evaluate the feasibility of requiring lockbox banks to maintain and
review logs or other documentation of individuals fingerprinted by the banks, including
reviewing them to identify potential employees who have been previously fingerprinted so they
will not submit to the OPM a second fingerprint request for that individual.
       Management’s Response: IRS management agreed to evaluate the feasibility of
       requiring the lockbox sites to maintain logs or other documentation to identify potential
       employees who have been previously fingerprinted.
Recommendation 3: Develop a process requiring IRS personnel to periodically review and
analyze fingerprint billing data to ensure the lockbox banks are not submitting fingerprinting
charges more than once for the same individuals.



                                                                                             Page 9
                                         Opportunities Exist to Reduce
                                         Lockbox Fingerprinting Costs



        Management’s Response: IRS management stated that this recommendation should
        be revised to focus on pre-emptive measures to avoid sending duplicative fingerprint
        requests because the electronic fingerprints go directly from the lockbox bank to the
        OPM. IRS management stated that they would engage the OPM and the lockbox vendors
        in identifying a viable solution to reduce the number of individuals fingerprinted more
        than once by lockbox banks within a specific time period.
        Office of Audit Comment: We agree that pre-emptive measures to avoid sending
        duplicative fingerprint requests would improve their process. However, we believe that
        an analysis of billing information would provide IRS management with increased
        assurance that any steps taken by the lockbox banks are effective to prevent duplicative
        charges.
Recommendation 4: Disseminate and clearly communicate appropriate fingerprinting
submission guidance to lockbox bank management to help reduce improper fingerprint
resubmissions to the OPM and reduce costs to the IRS. This should include the requirement that
“unclassifiable” fingerprint results be resubmitted with the original case number to avoid
unnecessary fingerprinting charges.
        Management’s Response: IRS management agreed with this recommendation and
        stated that effective November 28, 2011, the IRS revised its guidance to ensure
        individuals with unclassifiable fingerprint results are no longer required to be
        fingerprinted again and resubmitted to the OPM. They also stated a programming change
        was made to the Automated Background Investigation System5 the week of
        February 27, 2012, which allows the HCO to change an individual’s biometric data and
        retransmit the results. According to IRS management, this change eliminates the need for
        individuals with incorrect biometric data to be refingerprinted.
Recommendation 5: Evaluate the use of electronic fingerprints at all lockbox banks and
assess the business need of requiring lockbox banks to fully use this process to reduce
fingerprinting costs in the future.
        Management’s Response: IRS management agreed and stated that as of
        January 2012, all lockbox sites have electronic fingerprint equipment.




5
  The Automated Background Investigation System encompasses background investigations processing from the
step at which background investigations application forms are completed to final case disposition.
                                                                                                    Page 10
                                         Opportunities Exist to Reduce
                                         Lockbox Fingerprinting Costs



                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is accurately billed for the
cost of fingerprinting contractors who work in IRS lockbox operations. To accomplish the
objective, we:
I.      Evaluated the IRS’s process to ensure that the fingerprinting costs for contract employees
        assigned to lockbox operations are accurate.
        A. Interviewed appropriate IRS HCO personnel and determined the process they follow
           when reviewing fingerprinting bills received from the OPM and approving payment
           for billed charges.
        B. Determined whether IRS management reviews lockbox operations and assesses the
           accuracy of the fingerprinting costs.
        C. Obtained and reviewed any written procedures established by the IRS HCO to review
           and approve fingerprinting charges received.
        D. Obtained and reviewed contracts governing lockbox operations and identified any
           procedures related to the fingerprinting process.
        E. Reviewed Internal Revenue Manuals, Lockbox Security Guides, and Lockbox
           Processing Guides relating to the IRS’s fingerprinting process for lockbox bank
           employees.
        F. Interviewed IRS HCO personnel and obtained an understanding of the Automated
           Background Investigation System1 and determined how the data are used to ensure
           the IRS is accurately billed for fingerprinting costs for lockbox bank employees.
II.     Determined the lockbox banks’ processes for submitting the fingerprints of potential
        lockbox employees to the OPM for processing.
        A. Selected a judgmental sample of three lockbox banks to perform detailed audit
           testing. We judgmentally selected and performed site visits to Bank of America
           located in College Park, Georgia; JP Morgan Chase located in
           Charlotte, North Carolina; and US Bank located in Cincinnati, Ohio. We
           judgmentally selected those sites due to time constraints and to provide audit


1
  The Automated Background Investigation System encompasses background investigations processing from the
step at which background investigations application forms are completed to final case disposition.
                                                                                                    Page 11
                                     Opportunities Exist to Reduce
                                     Lockbox Fingerprinting Costs



           coverage at all three lockbox financial institutions and because those sites billed high
           fingerprinting charges to the IRS during FYs 2009 and 2010.
       B. Interviewed lockbox bank management at the three selected sites and determined
          their process for fingerprinting and assigning employees to the lockbox area.
       C. Obtained and reviewed bank employee fingerprinting policies and procedures at the
          selected lockbox banks.
       D. Obtained and reviewed documentation, including fingerprint cards and consents,
          driver’s licenses, social security cards, employee photos, and any other supporting
          documentation at the selected sites that supported the specific employees who worked
          in the lockbox area during FYs 2009 and 2010.
       E. Obtained and reviewed lockbox bank documentation at the selected sites and
          identified the employees for whom fingerprints were submitted to the OPM and billed
          to the IRS.
       F. Determined whether the employees identified in Step II.D. had a documented
          clearance letter.
III.   Determined whether the IRS was accurately and appropriately billed for fingerprinting
       costs associated with approved bank employees assigned to the lockbox bank area during
       FYs 2009 and 2010.
       A. Obtained a complete list from IRS HCO management of all lockbox bank employees
          for whom the IRS was billed for fingerprints in FYs 2009 and 2010.
       B. Compared the information obtained in Step II.D. with the information obtained in
          Step III.A. and identified any individuals who were fingerprinted but did not work in
          the lockbox bank area.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS procedures and policies for reviewing
fingerprint billing charges incurred at IRS lockbox banks during FYs 2009 and 2010. We
evaluated these controls by interviewing personnel at the IRS, the Department of the Treasury’s
Financial Management Service, and the selected lockbox banks and reviewing applicable
documentation.




                                                                                            Page 12
                                  Opportunities Exist to Reduce
                                  Lockbox Fingerprinting Costs



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Jeffrey M. Jones, Director
Joseph F. Cooney, Audit Manager
Jamelle L. Pruden, Lead Auditor
LaToya R. Penn, Auditor
Rashme Sawhney, Auditor




                                                                                  Page 13
                                 Opportunities Exist to Reduce
                                 Lockbox Fingerprinting Costs



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Wage and Investment Division SE:W
Deputy IRS Human Capital Officer OS:HC
Director, Employment, Talent, and Security, Human Capital Office OS:HC:ETS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       IRS Human Capital Officer OS:HC
       Commissioner, Wage and Investment Division SE:W:S:W




                                                                               Page 14
                                       Opportunities Exist to Reduce
                                       Lockbox Fingerprinting Costs



                                                                                       Appendix IV

                                 Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Cost Savings: Funds Put to Better Use – Potential; $161,165 (see page 4).

Methodology Used to Measure the Reported Benefit:
To determine the potential excess fingerprinting charges paid by the IRS, we divided the number
of individuals hired to work at each lockbox bank location by the percentage of individuals who
should have received an approved fingerprint check in order to get a reasonable number of
individuals who should have been fingerprinted for each location. In addition, to account for
possible attrition, etc., we added an extra 10 percent to the number of individuals hired to work
in each location. We subtracted the difference between the actual numbers of individuals
fingerprinted from the number of individuals who should have been fingerprinted and multiplied
this result by the cost of processing an electronic fingerprint ($24.25) to determine the potential
cost savings.
FY 2009
                                         Lockbox 1          Lockbox 2         Lockbox 3       Total
                                                                                              Costs
Employees Hired to Work in             1,624              2,155              920
Lockbox Bank
Percentage of Individuals Who Did      32.8%              20.2%              29.7%
Not Receive an Approved
Fingerprint Check
Individuals Requiring Fingerprinting   1,624/(1 - .328)   2,155/(1 - .202)   920/(1 - .297)
to Ensure Sufficient Staffing          = 2,417            = 2,701            = 1,309
(Accounting for “Unapproved”
Fingerprints)
Extra Percentage of Potential          1,624 x 10% =      2,155 x 10% =      920 x 10% =
Employees to Fingerprint to Account    162                215                92
for Attrition, etc.


                                                                                              Page 15
                                            Opportunities Exist to Reduce
                                            Lockbox Fingerprinting Costs




 Individuals Fingerprinted                 4,072                5,333              1,985

 Number of Individuals Potentially         4,072 - 2,417 -      5,333 - 2,701 -    1,985 - 1,309 -
 Fingerprinted Unnecessarily               162 = 1,493          215 = 2,417        92 = 584
 Estimated Excessive Fingerprinting        $36,205              $58,612            $14,162           $108,979
 Costs


 FY 2010
 Employees Hired to Work in                1,363                1,912              882
 Lockbox Bank
 Percentage of Individuals Who Did         31.1%                16.5%              23.3%
 Not Receive an Approved
 Fingerprint Check
 Individuals Requiring Fingerprinting      1,363/(1 - .311)     1,912/(1 - .165)   882/(1 - .233)
 to Ensure Sufficient Staffing             = 1,978              = 2,290            = 1,150
 (Accounting for “Unapproved”
 Fingerprints)
 Percentage of Potential Employees to      1,363 x 10% =        1,912 x 10% =      882 x 10% =
 Fingerprint to Account for Attrition,     136                  191                88
 etc.

 Individuals Fingerprinted                 3,090                3,024              1,871
 Number of Individuals Potentially         3,090 - 1,978 -      3,024 - 2,290 -    1,871 - 1,150 -
 Fingerprinted Unnecessarily               136 = 976            191 = 543          88 = 633

 Estimated Excessive Fingerprinting        $23,668              $13,168            $15,350           $52,186
 Costs
Source: Treasury Inspector General for Tax Administration analysis of IRS lockbox data.

 Total estimated excessive fingerprinting costs for FYs 2009 and 2010: $109,979 + $52,186 =
 $161,165.

 Type and Value of Outcome Measure:
    Cost Savings: Funds Put to Better Use – Potential; $24,929 (see page 4).

 Methodology Used to Measure the Reported Benefit:
 We analyzed the IRS HCO’s monthly fingerprint billing data to identify duplicate fingerprinting
 charges for which the IRS was billed during FYs 2009 and 2010. Based on our review, we
 identified 1,028 instances in which individuals were fingerprinted more than once in the same

                                                                                                       Page 16
                                     Opportunities Exist to Reduce
                                     Lockbox Fingerprinting Costs



fiscal year by the three lockbox banks reviewed. Specifically, we identified 644 instances in
FY 2009 and 384 instances in FY 2010.
To be conservative, we used the lower cost of electronic fingerprinting ($24.25) to determine the
cost savings for the three lockbox banks. As a result, we determined the duplicate fingerprinting
charges totaled $24,929.
FY 2009 duplicate charges: 644 duplicates x $24.25 = $15,617.
FY 2010 duplicate charges: 384 duplicates x $24.25 = $9,312.
Total duplicate charges for FYs 2009 and 2010: $15,617 + $9,312 = $24,929.

Type and Value of Outcome Measure:
   Cost Savings: Funds Put to Better Use – Potential; $14,324 (see page 4).

Methodology Used to Measure the Reported Benefit:
To determine the potential savings on electronic fingerprinting charges, we analyzed the IRS
HCO’s monthly fingerprint billing data to determine the charges the IRS incurred on behalf of
the lockbox bank that submitted manual fingerprints in FYs 2009 and 2010. Based on our
analysis, we determined that 7,162 manual fingerprints were submitted by the lockbox bank
totaling $188,003 (7,162 x $26.25).
We then determined the cost savings that could have been realized if electronic fingerprinting
had been performed at the lower cost ($24.25). This totaled $173,679 (7,162 x $24.25).
To calculate the savings, we subtracted the cost of electronic fingerprinting from the manual
fingerprinting costs to determine a savings of $14,324.
Total potential savings: $188,003 - $173,679 = $14,324.




                                                                                          Page 17
             Opportunities Exist to Reduce
             Lockbox Fingerprinting Costs



                                             Appendix V

Management’s Response to the Draft Report




                                                  Page 18
Opportunities Exist to Reduce
Lockbox Fingerprinting Costs




                                Page 19
Opportunities Exist to Reduce
Lockbox Fingerprinting Costs




                                Page 20
Opportunities Exist to Reduce
Lockbox Fingerprinting Costs




                                Page 21
Opportunities Exist to Reduce
Lockbox Fingerprinting Costs




                                Page 22
